<html>
<title> - [H.A.S.C. No. 111-121] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-121] 

                    REPORT OF THE DEFENSE TASK FORCE 

                        ON SEXUAL ASSAULT IN THE 

                           MILITARY SERVICES 

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 3, 2010

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-260 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                David Kildee, Professional Staff Member
               Jeanette James, Professional Staff Member
                      James Weiss, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, February 3, 2010, Report of the Defense Task Force on 
  Sexual Assault in the Military Services........................     1

Appendix:

Wednesday, February 3, 2010......................................    23
                              ----------                              

                      WEDNESDAY, FEBRUARY 3, 2010
  REPORT OF THE DEFENSE TASK FORCE ON SEXUAL ASSAULT IN THE MILITARY 
                                SERVICES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Dunbar, Brig. Gen. Sharon K.G., USAF, Member, Defense Task Force 
  on Sexual Assault in the Military Services.....................     5
Iasiello, Dr. Louis V., Co-Chair, Defense Task Force on Sexual 
  Assault in the Military Services...............................     3

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    27
    Iasiello, Dr. Louis V., joint with Brig. Gen. Sharon K.G. 
      Dunbar.....................................................    30
    Wilson, Hon. Joe.............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  REPORT OF THE DEFENSE TASK FORCE ON SEXUAL ASSAULT IN THE MILITARY 
                                SERVICES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                       Washington, DC, Wednesday, February 3, 2010.
    The subcommittee met, pursuant to call, at 3:04 p.m., in 
room 210, Capitol Visitor Center, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon. Today the Military Personnel 
Subcommittee meets to receive the report of the Defense Task 
Force on Sexual Assault in the Military Services. The task 
force was created by the National Defense Authorization Act for 
fiscal year 2005 as an extension of the Defense Task Force on 
Sexual Harassment and Violence at the military service 
academies.
    We are very pleased that you are here. We are very pleased 
that you have completed your report. We know that you got 
started a little after that initial 2005 authorization, 
certainly not the task force's fault, but we are glad that it 
commenced and that you really did the tremendous work that you 
did. Thank you so much for that.
    Sexual assault is a complex problem that does not lend 
itself to a single hearing. Last year we set out to continue 
our examination of sexual assault in the military by starting a 
series of hearings on individual subjects so that members and 
witnesses could have in-depth discussions about various issues 
to build towards a comprehensive understanding of the problem. 
This in turn will guide our deliberations on what can and 
should be done next.
    The first two hearings of this series looked at victim 
advocacy and support as well as the prevention programs put in 
place by the Department of Defense. Our next hearing was to 
focus solely on prosecution of sexual assault in the military. 
But since the Defense Task Force on Sexual Assault in the 
Military Services released their report in December, we have 
decided instead to have this hearing to fully examine their 
findings and recommendations.
    I want to thank the task force co-chairs for the depth, the 
breadth, the thoughtfulness and quality of this report. This is 
exactly the type of well-researched report we hope for when we 
create these task forces in law, complete with comprehensive 
and practical recommendations. I certainly cannot promise that 
all of your recommendations for Congress will be implemented, 
nor that those that are implemented will be done exactly as you 
have put forth, but I can assure you that each and every one 
will be carefully reviewed and considered by this subcommittee.
    I certainly don't want to steal any of the thunder from our 
witnesses but there is a recurring theme that needs to be 
mentioned from the outset. While the Department has done much 
in recent years to address sexual assault in the military, much 
more remains to be done. Thankfully, due to the work of this 
task force and others, we have a much clearer understanding of 
the problem. It is important that we make some significant 
improvements to how the Department deals with sexual assault 
and that we all do what we can to avoid inadvertently making 
things worse in the process.
    Sexual assault within the ranks is antithetical to the 
trust and camaraderie that defines military culture. Any sexual 
assault undermines the moral foundation of our Armed Forces and 
does irreparable harm to unit cohesion. Hopefully, today's 
hearing will help us chart a legislative course to make 
progress in our goal to eliminate sexual assaults in the 
military.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 27.]
    Mrs. Davis. We have with us two distinguished members of 
the task force. Rear Admiral Iasiello is a former Chief of Navy 
Chaplains and served as one of the task force co-chairs. 
Brigadier General Dunbar is a director of force management 
policy for the Air Force and served as a senior military member 
of the task force. We certainly welcome you to be here.
    I wanted to mention that I would ask unanimous consent that 
Mr. Turner be allowed to participate in today's hearing and be 
able to ask questions after the subcommittee members have had 
an opportunity to do that.
    I now turn to Mr. Wilson for any of his comments.

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Madam Chair. I join you in welcoming 
our witnesses and thank them and the other task force members 
and staff for the excellent work and report concerning a very 
difficult, important, and challenging set of issues. This 
report is comprehensive, detailed, and highly insightful as to 
how much yet needs to be done to ensure that the military 
culture adequately, appropriately, and effectively addresses 
the issues related to sexual assault.
    Certainly the report cites many instances of best practices 
by the military services to illustrate that progress has been 
made and is being made. Among those best practices are the 
efforts at Fort Jackson, which is in the Second District of 
South Carolina that I represent, the Army's largest gender-
integrated, initial-entry training center where sexual assault 
is addressed within the first two days of training. Overall, 
however, the report cites serious shortcomings in the strategic 
direction, prevention, and training, response to victims, and 
accountability efforts of the Department of Defense [DOD] and 
the military services. Furthermore, the report is critical of 
the well-intentioned effort by Congress to create a new 
comprehensive article 120 of the Uniformed Code of Military 
Justice, UCMJ. Practitioners see it as cumbersome, confusing, 
and a barrier in some cases to convictions. Also, significant 
issues have evolved related to the article's constitutionality.
    Finally, the report touches on implementation challenges of 
DOD policies and practices during deployed joint operations 
overseas and in joint-basing situations in the United States.
    It is sad that nearly 65 years after World War II 
demonstrated the military necessity to expand the roles for 
women in the military and continuous efforts by Congress to 
facilitate the integration and assimilation of women into the 
military, we are here today to receive yet another report that 
clearly indicates so much still needs to be done. I believe the 
authors of this report provide most of the answers to my 
question. I quote: ``The task force believes that culture 
change is essential for military services to improve how they 
prevent and address sexual assault.''
    The lesson we should take away from this report is that 
culture change is hard, difficult, and neither smooth nor 
quick. It is a process requiring enduring commitment to change 
over the long term. In that vein, I am sure this subcommittee 
will energetically pursue and support the task force 
recommendations.
    But I would also caution that as the subcommittee begins to 
address other issues that will require significant military 
cultural changes that I have seen in my 31 years of Army 
National Guard service, such change will not be easy or quick 
and, like the efforts to change military culture with regard to 
assimilation and integration of women, likely to be disruptive 
and difficult for many years, not withstanding the assurances 
to the contrary of some advocates for change.
    Thank you, Madam Chair, for holding this hearing. I look 
forward to the testimony of our witnesses.
    Mrs. Davis. Thank you.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]
    Mrs. Davis. Dr. Iasiello, would you like to proceed.

  STATEMENT OF DR. LOUIS V. IASIELLO, CO-CHAIR, DEFENSE TASK 
        FORCE ON SEXUAL ASSAULT IN THE MILITARY SERVICES

    Dr. Iasiello. Chairwoman Davis, Ranking Member Wilson, and 
other distinguished members, thank you for this opportunity to 
present the work of the Defense Task Force on Sexual Assault in 
the Military Services. As co-chairs we are honored to be here 
to discuss the recommendations and findings of the task force 
membership and staff. Given the fact that our formal statements 
have been forwarded to you, we will keep our opening comments 
very, very brief.
    As regards to the task force authority, as the Chairwoman 
has already mentioned, the Congress directed the task force to 
be established in 2005 by the Defense Authorization Act and it 
was established by the Secretary of Defense in August of 2008. 
The task force employed an extensive methodology, employing 
both quantitative and qualitative measures.
    Over a period of 15 months, we have visited more than 60 
military installations, CONUS [continental United States], 
OCONUS [outside the continental United States], and in the AOR 
[area of responsibility]. We have interviewed more than 3,500 
individuals, 61 victims of sexual assault, senior military and 
civilian DOD leadership, sexual assault response coordinators 
[SARCs], victim advocates and, of course, their supervisors.
    We have interviewed the first responders to sexual assault, 
the doctors, the lawyers, the chaplains, the military police, 
the DOD Criminal Investigative Services. We have reviewed 
hundreds of their criminal investigative reports as well as all 
prior reports on sexual assault leading up to our work. And at 
the completion of our work, we submitted our report to the 
Secretary of Defense December 1 of 2009.
    The task force focused its work in three distinct yet 
interrelated areas: victim response, prevention and training, 
accountability and strategic oversight.
    First off, the report recognizes the progress made by the 
Department of Defense in the area of victim response since the 
inauguration of the SAPR [sexual assault prevention and 
response] program in 2005. We believe that the recommendations 
contained in our report will significantly improve these 
programs in this critical area of victim response.
    Next, in the area of strategic direction, the task force 
recommends that the Deputy Secretary of Defense take 
responsibility for the SAPRO [sexual assault prevention and 
response office] for a period of at least one year and until 
the Secretary of Defense apprises Congress that the SAPR 
program is meeting its established goals. We further recommend 
that the SAPR program be given a more permanent complexion. The 
Department of Defense needs to communicate the message that the 
SAPR program is here to stay and illustrate that resolve 
through designated funding for SAPR funding in its DOD POM 
[program objective memorandum] or budgeting process.
    The task force recommends that the organizational design, 
personnel, and mission of the DOD SAPRO Office be revised to 
strategically lead in this critical area.
    We recommend the establishment of a uniform SAPR 
terminology and core structure to be implemented across service 
lines. The task force recommends the professionalization of 
victim advocates to ensure qualified personnel with national 
certification, and we recommend that SARCs, the sexual assault 
response coordinators, be either DOD personnel or uniform 
personnel.
    The task force recommends the development of program 
standards and subsequent metrics which will enable the DOD to 
more accurately measure the health of the SAPR programs.
    And finally, in the area of strategic direction, the task 
force is strongly recommending funding for SAPR research in 
collaboration with civilian experts throughout our country such 
as those found in the world of academia, advocacy groups, and 
other Federal agencies.
    [The joint prepared statement of Dr. Iasiello and General 
Dunbar can be found in the Appendix on page 30.]
    Dr. Iasiello. And now I would like to turn the microphone 
over to my esteemed colleague, General Sharon Dunbar.

   STATEMENT OF BRIG. GEN. SHARON K.G. DUNBAR, USAF, MEMBER, 
 DEFENSE TASK FORCE ON SEXUAL ASSAULT IN THE MILITARY SERVICES

    General Dunbar. Chairwoman Davis, Congressman Wilson, other 
distinguished members, as a senior uniformed member of the task 
force, I appreciate the opportunity to come before you to talk 
about the findings and recommendations of our report.
    Based upon the 15-month review that we had, several themes 
clearly emerged. First, prevention in sexual assault should be 
the number one goal to prevent the devastating impact sexual 
assault has on member, his or her unit, the readiness of his or 
her unit, as well as the undermining effects sexual assault has 
had on the reputation of our Armed Forces.
    Second, there needs to be greater consistency among each of 
the services because of the jointness which we see in our 
operations today, joint basing as well as the deployed 
operations taking place.
    There are also distinct differences between our components, 
Active and Reserve. We do not have time to fully address these 
differences, which is why we recommend DOD undertake a separate 
review of this. The availability and the consistency of data 
also remains a concern for us.
    Finally, in the area of response, a notable improvement in 
that area, but additional improvements as we have discussed are 
clearly needed.
    In the realm of prevention and training, prevention if we 
accept it as a top priority in addition to providing support 
for victim advocates and being key to combating sexual assault, 
we would say that the SAPRO Office needs to establish a very 
clear overarching prevention strategy. That was not clear 
during our review. We understand that they have since developed 
an overarching prevention strategy, and so its implementation 
will be key to the success of the Sexual Assault Prevention 
Response program.
    In addition, that overarching prevention strategy will 
allow greater consistency among the services and drive them 
into having uniform terms and conditions, positions, and 
approaches for addressing this particular issue. Under that 
prevention strategy, by-stander intervention is a very clear 
area where the Department of Defense and military services have 
made tremendous strides.
    But we would argue that the overarching prevention strategy 
entails much more. It encompasses assessment of a community's 
physical environment from the terms of safety, facility 
location, issues that we saw in the AOR. It is also 
encompassing of community awareness, leadership emphasis and 
involvement. To a certain extent we have seen that where the 
leadership is involved, the success of the program is much more 
effective, stemming from looking at the senior leadership of 
the military services, holding annual summits addressing sexual 
assault prevention and response to the Chairman of the Joint 
Chiefs of Staff's video, which we saw when we traveled over 
into the AOR, to even at the lowest unit level commanders who 
are very actively engaged in addressing the issue of sexual 
assault prevention and response. The leadership sets the tone.
    We also would say that sexual assault from the standpoint 
of prevention, the strategy that we would like to see will 
guide initiatives, process, the training and the public 
outreach that is required to address the issue, which would 
also enable the military services and the Department of Defense 
to better leverage and partner with outside experts in 
addressing the issue. That affects not just those who are 
serving in the military services but all of our society as 
well.
    In the training arena, we would argue that in order to be 
effective, the training that is currently conducted must be 
more tailored and developmental in nature. Tailored to both 
military and civilian personnel over the course of their 
service, tailored to maturity levels, leadership levels, and 
skill levels.
    Improving awareness should be one of the key aspects of 
training, addressing the frequency of incidents, addressing 
victim and perpetrator risk factors from age, alcohol, 
location, acquaintance versus stranger, garrison versus 
deployed, and risky behavior in general.
    The training should address myths, the very myths that are 
out there that are prevalent and accepted by members of society 
as well as members of our military services. And we would also 
argue that the training needs to be less nearly focused on 
women because that makes it all the more difficult for male 
victims to come forward. We all know that the ability of male 
victims to report is much less. It is very difficult for any 
victim of sexual assault to come forward. But currently the 
training tends to be more geared towards females than 
encompassing any individual who might become a victim of sexual 
assault.
    We would also argue that the training needs to be more 
specialized and recurring: first responders and SARCs; victim 
advocates specific to the gender of the victim; as well as 
investigators and prosecutors in order for us to be able to be 
improve successful prosecution of sexual assault; as well as 
specialized training for leadership, as I mentioned, at all 
levels of service.
    In the victim response area, as we have said, much has been 
done in order to improve what we are doing there, but some of 
the areas where we see additional improvement is in providing 
the immediate victim support from the first responders, the 
community-based support and victim advocacy, as well as just 
from general safer access, the contact numbers and 
accessibility. All of those are very key for a victim to know 
in a standardized way if they are anywhere serving, whether it 
is CONUS, OCONUS, or in a deployed environment, exactly who 
they go to, where they can go in order to receive the care and 
treatment that they need.
    We have heard consistently that the victims are 
dissatisfied with the treatment that they received during the 
investigative process, and we make a number of recommendations 
in order to improve how these victims are treated in order to 
ensure that they are able to receive support from a certified, 
very well-trained victim advocate, to being able to get advice 
from a qualified military attorney, to also providing them with 
privileged communication which we see as necessary in order to 
encourage more victims to come forward.
    And longer-term support is something, obviously, that we 
need to be looking at beyond an individual's service in the 
military. We did not fully address this particular area, but we 
would offer that as an area to further explore.
    In accountability, we took a look at the system 
accountability as well as offender accountability and found 
that we need improvements in terms of the database, in terms of 
the reliability and the validity of the data as submitted to 
Congress in the annual report. We have concern over the 
sufficiency of the funding in order to ensure timely delivery 
of the much-needed database and the service's ability, in order 
to provide the data to be integrated into a database which 
allows the opportunity for Members of Congress as well as the 
Department of Defense to do trend analysis in sexual assault.
    In the accountability area we would also address leadership 
accountability, the need for commanders to address more openly 
the issue of sexual assault at the unit level. As I mentioned, 
we have seen it addressed at the senior levels of the services 
to include the Chairman of the Joint Chiefs of Staff, and we 
have seen it very successfully addressed at some unit 
locations, but we would argue that much more needs to be done 
in this area.
    Routine discussion of sexual assault by unit commanders 
helps to continue to increase awareness, reinforce a 
commander's stance on no tolerance of sexual assault in the 
unit, and it instills confidence in the system in the attention 
that it is given to it.
    We outlined a number of best practices. Fifteen are listed. 
No doubt there are many more best practices that are out there 
beyond the locations we were able to visit. There is much that 
is going on that is very positive within the DOD and the 
military services, and I think that the SAPRO Office needs to 
take a look at what all those best practices are and integrate 
those into the prevention strategy it is currently addressing.
    In closing, I would say that on behalf of the task force 
members, some of whom have been addressing the issue of sexual 
assault for decades now, we thank you for your leadership on 
this issue, your concern, and the invitation to speak before 
you today.
    Dr. Iasiello and I stand by to take any questions you may 
have.
    [The joint prepared statement of General Dunbar and Dr. 
Iasiello can be found in the Appendix on page 30.]
    Mrs. Davis. Thank you very much. I appreciate your 
thoughtfulness throughout this.
    One of the recommendations you have had, especially as we 
move forward, is to place a sexual assault prevention and 
response office under the Deputy Secretary of Defense for at 
least a year. And you thought that that would give them a 
chance to kind of apprise what is happening. Our experience has 
been that they just aren't really in a position to be able to 
do that, that it is not the staff--they are not designed for 
that kind of oversight.
    I am wondering if you have had any additional thoughts 
about that, if you feel that you looked at that and felt that 
that was the only way to give this the kind of stature, 
perhaps, that we are looking for. How can we look at that? 
There is a concern that they are just not ready to do that.
    We had an experience as well with oversight of the process 
at Walter Reed, and, you know, there is just a lot of question 
whether that is really the best place to put this additional 
responsibility for oversight.
    Dr. Iasiello. It was our thought as we put forward that 
recommendation, that after 2005 each of the services took off 
in their own direction trying to answer this issue and trying 
to confront this issue in the best way possible, and we applaud 
that initiative that each of the services took in sort of 
taking this forward. But I think I speak for the task force 
membership when I say that we really would like to see a 
strategic leadership role taken by the SAPRO Office at the DOD 
that would help to bring together these incredible efforts that 
we see now from the leadership of the different services, the I 
Am Strong Program in the Army being just one of the many 
examples that are out there; and especially, as the General 
mentioned, as far as the comprehensive prevention strategy that 
we are talking about, someone really needs to take the lead on 
that. Someone needs to be able to be liaison and to partner 
with the intellects that are out there in the civilian society 
and to capitalize on the great ideas that are part of our 
American culture.
    And so we felt that by placing the office, at least 
temporarily, under the Deputy Secretary of Defense, that we 
expect, of course, a lot to be done in a very short period of 
time. We felt that that added support, added attention, would, 
in fact, help them to realize their goals.
    Mrs. Davis. I think you would stand by that statement.
    I think what we are just wondering is if a decision was 
made that perhaps they don't have the ability now, the capacity 
to actually provide the kind of oversight that we are really 
seeking here. Were there some other thoughts about how this 
might be done?
    I think what I hear you saying very strongly is that you 
want to have more authority, more oversight, and certainly 
raise the level of--I am not sure that the word is 
``competency,'' I think it is the capacity to deal better and 
to be seen as an office that really means exactly what it says 
here. And we are struggling a little bit to sort of define that 
better.
    General Dunbar. Yes, ma'am. I think the intent behind the 
recommendation is to provide higher oversight, and I think that 
there are a number of ways to do that. The recommendation was 
geared to highlight the fact that that oversight is necessary, 
and so that is one recommendation. But there are clearly other 
ways of doing that. And we indicated in the report, one of the 
areas that we found a shortcoming was just in the staffing 
alone of the SAPRO Office in order for it to be able to do what 
is required. And I think when you look at some of the issues 
that drove that recommendation, it stemmed from the under 
resourced nature in terms of staffing of the office that, 
frankly, you go back to the inception of the office, it was 
geared more towards response and it now needs to expand into 
prevention and training and other areas. And in order to do 
that higher oversight at a level, whether it is the level 
recommended in the report or elsewhere, we believe is prudent.
    Dr. Iasiello. And if I may, we see it as critically 
important that there be uniformed members as part of that 
staff, people in uniform and people that have had the 
experience of leading and understand.
    We also are asking for a seasoned JAG [Judge Advocate 
General] officer from one of the military services to be part 
of that staff and to have a designated victim advocate on staff 
with the expertise to handle the issues at that strategic 
level.
    Mrs. Davis. I was going to ask if there are professionals, 
and you mentioned the JAG officer, experience level or 
educational level that you feel would contribute greatly to 
that kind of stature and authority that it would have. Is there 
anything in addition to that?
    General Dunbar. Principally the leadership of the office 
and the recommendation that we make is that it be led by a 
general flag officer or a civilian-level equivalent.
    Mrs. Davis. Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you.
    General and Doctor, thank you very much for being here. I 
notice behind you, you have a very distinguished JAG officer 
with you. I am a former JAG myself, so I appreciate your 
service.
    However you want to answer in whichever order, you cite 
there are implementation difficulties with JAG, with article 
120 of the UCMJ, in your report and recommend a review by 
military justice experts as to its effectiveness. Are these 
difficulties related to the fact that the law only went into 
effect for offenses committed on or after October 1, 2007, and 
lawyers are simply not familiar with how to use the new 
provision; or are there serious issues with article 120 and on 
what particular issues should the review focus?
    General Dunbar. Congressman Wilson, I believe that from 
practitioners what we have heard is that article 120, as it is 
currently outlined is, as you used the word, ``cumbersome.'' It 
is complicated and confusing. It is confusing for those who are 
trying to prosecute, but it is confusing for individuals who 
are hearing the cases in order to look into the types of 
charges. It encompasses far more, and I think as a result of 
that, it is very difficult for individuals sitting on a jury in 
order to be able to come to a conclusion. The concern is 
because of the broad nature of it, that there may be 
individuals that, as a result, may be acquitted. And that is 
why we would just ask for a review of it. Those who are 
implementing it, the JAG officers, know better than we do, and 
I think that that dialogue is important.
    Mr. Wilson. And in line with your concern about acquittals, 
I have the same concern. Your report suggests the view that the 
military is aggressive in prosecuting sexual assault. However, 
you note that the pursuit of prosecution in court-martial 
cases, where evidence is not as strong as it might be, leads to 
pure convictions. This is also an obstacle for obtaining court-
martial convictions.
    What recommendations would you give to the military 
prosecutor for increasing court-martial convictions? What role 
can nonjudicial measures, such as article 15s and 
administrative actions, have in the effort to prevent and to 
punish sexual offenders?
    General Dunbar. As a former commander, I think that this is 
an area that everybody struggles with from the standpoint of 
wanting to prosecute cases to looking at what is prosecutable, 
and I think in the end you want to provide justice for the 
victim.
    What we would recommend and we do, in fact, recommend for 
prosecutors as well as investigators, is additional training, 
because sexual assault, the incidence level of it spread across 
all the installations, across all the JAGs who have to try the 
cases, their ability to have familiarity with trying sexual 
assault cases is not as extensive as one would think. So if you 
establish a cadre of individuals who are well-trained in order 
to be able to prosecute those cases--the Army is doing that--or 
you bring on additional investigators, as the Air Force and 
other services are doing, and you provide specific training to 
sexual assault, we are hoping that that leads to increased 
success in prosecution.
    To your reference as far as nonjudicial punishment, we 
would argue that certainly when we are looking at cases and the 
ability to prosecute successfully those cases, that the JAG and 
the commander need to have that discussion and need to look at 
the tools that are there in order to be able to provide justice 
for the victim. At the same time, it probably merits including 
the victim in some of the consultative process there, and we 
have addressed that issue as well.
    Mr. Wilson. Another concern I have that your report hits 
on, indicates victims often jeopardize their option for 
restricted reporting because they share information with the 
assault about a friend, family member, or superior. But you 
note it is natural for a victim to want to tell someone they 
trust about the assault. You recommend for a victim to have the 
right to make a restricted report despite disclosing to a third 
party. However, you exclude the direct chain of command or law 
enforcement from the third parties.
    Why shouldn't a victim have the right to choose restricted 
or unrestricted reporting regardless of who may be aware of the 
assault?
    General Dunbar. That recommendation was essentially one 
step in the direction of trying to afford the victims with a 
little more latitude as to who they can turn to in order to 
discuss their situation. Right now, as you know, they could 
confide in a peer, and it may not guarantee them 
confidentiality.
    Again, kind of harkening back to having been a commander 
and having the opportunity to speak to the commanders, for the 
victim to talk to a commander about being sexually assaulted, 
it puts the commander in a very difficult position because the 
commander is going to want to seek justice, and having that 
information and not being able to act upon that information is, 
I think, problematic. Hence, the restrictive reporting as we 
have currently set up we believe works very well. But expanding 
the opportunity for a victim to be able to confide to peers, 
friends, as research indicates they are more inclined to do, as 
opposed to go to authorities that they know, even offer them 
confidence--chaplains as being one of them--we believe provides 
a support network for the victims which, in the end, one of the 
objectives is for us to ensure that military victims of sexual 
assault come forward to receive the care and treatment that 
they need; and that is an option that allows that, while at the 
same time enabling the commanders to kind of have that law in 
order for them to be able to seek the prosecution of the 
offenders.
    Mr. Wilson. I again thank both of you for your efforts. 
This is such an important issue for the young people serving in 
our military and the great opportunity that they have to serve 
that they should serve without fear of sexual assault.
    Thank you and I yield back the balance of my time.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    General Dunbar, would you give me your 15-second summary--I 
know it wasn't your all's fault, but why there was such a delay 
between the time of passage until you all went to work?
    General Dunbar. Sir, I honestly can't comment on that 
because I was busy doing my job, just waiting for us to 
convene; so the machinations behind it, I couldn't comment on 
it.
    Dr. Snyder. Do you ----
    Dr. Iasiello. I can't speak to the decision, but what I can 
speak to is the fact that when members were asked, it was an 
immediate yes. They saw the opportunity to help men and women 
in uniform, and they aggressively pursued this task, not in a 
ceremonial fashion, but actually giving up a year of their 
lives to the work of the task force. So we really can't speak 
to the question of why, but we can speak to the fact that, when 
asked, everyone responded in a magnificent way.
    Dr. Snyder. General Dunbar, when you look at the 
differences between how you view the challenges at a military 
base domestically versus overseas in a war zone, do you see 
those as being qualitatively different, or can they be 
basically the same approach in all three places?
    General Dunbar. I believe that there are qualitative 
differences. We are looking at OCONUS versus CONUS. One of the 
issues that we saw OCONUS overseas was the need to ensure that 
we are providing our civilian members, the DOD, civilian 
personnel, with the support that they require because they are 
overseas in a different environment. From a military member 
standpoint, OCONUS to CONUS, probably not that much different. 
In the AOR compared to CONUS or OCONUS, certainly differences. 
You have individuals who are moving in and out of theater very 
quickly, out of bases very quickly. You have individuals that 
are dispersed over the area, and that need for accountability, 
the importance of having individuals know exactly who it is 
that they can go to, is paramount given the circumstances of 
just operations in the deployed theater in general. So there 
are differences.
    Dr. Snyder. One of your recommendations deals with the 
issue of letting victims of sexual assault know what the 
results of formal military disciplinary reaction is. That is 
not a problem just for sexual assault, though, is it? I mean 
you could have victims of other crimes, breaking into their 
home, destroying--vandalize their favorite trophy, who knows 
what it is--all kinds of things can happen--beat up their kid. 
That is a problem not just with regard to sexual assault; is 
that correct.
    Dr. Iasiello. If I may, obviously the investment that a 
victim makes in the whole legal process is a very emotional 
one, a very draining one. And also the way that things are 
handled and keeping the rumor mill under control and so on 
within a command is extremely important, obviously, for the 
morale and welfare of the members of a unit. And I guess the 
point we were getting at or trying to get at was the fact that 
too often we interviewed victims or we met with focus groups, 
and people were absolutely unaware of what happened, why 
someone was acquitted, why charges were dropped or whatever. So 
the information chain is critically important not only for the 
victim, but also for the members of the unit in order to have a 
more transparent look at what is going on. That is why the 
recommendation was made.
    Dr. Snyder. My question is that is not just a problem--I 
understand you--that is not just a problem with sexual assault, 
that the disciplinary process may not inform, you know, 
whether--I mean certainly it is qualitatively different, but 
people who go down and file charges and testify or make 
complaints may not hear what the results are in other areas 
too, not just sexual assault; is that accurate.
    General Dunbar. Yes, that would be the case.
    Dr. Snyder. Your recommendation that the SARCs need to 
specifically be either DOD civilian or DOD military. Would you 
amplify that about why--I don't know--a military spouse who is 
not DOD, may not be a civilian, maybe a volunteer or somebody 
from the community, a community organization--why that breaks 
down so strongly that you feel that it--you make that strong 
recommendation?
    Dr. Iasiello. It is one of the recommendations we all felt 
very strongly about. And the reason why, Congressman, was the 
fact that it is really access to the commander, a person's 
ability to be able to access their commander. And what we found 
with contractors is sometimes they are placed under other 
organizations, like family advocacy groups or community 
services and so on, and there may be a two- or three-tiered 
chain of command between them and the commander.
    We feel for a SARC to be effective, there needs to be this 
immediacy of presence with their commanders not only to keep 
them informed but to have that access when necessary.
    So the membership, as we were talking about ways to make 
things better, we felt that making the SARC a member of the DOD 
team as far as a DOD employee or, as the Air Force has done in 
some locations, making them uniformed members and giving them 
that SARC responsibility, we saw a great improvement in the 
areas where that was happening. So that is why we made the 
recommendation.
    Dr. Snyder. Thank you.
    Mrs. Davis. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair, and thank you again 
for having this hearing. As you know, I have been working on 
this issue for a while and I am very interested to hear--and I 
have read the report with respect in particular to the article 
120 comments, and I would like to say some of the comments in 
there were red herrings, and I have a different view of it. But 
also some of them were due to, I think, just the nature of law-
making. I mean the initial change to article 120 that I 
proposed was different, and when I look at cumbersome pieces of 
it, those pieces actually came from the Secretary's Office. So 
I would love a chance to go back, Madam Chair, and be able to 
redo, if we have to, article 120, because I think it is that 
important for us to bring it into today's world.
    In the military report, you had a case-by-case synopsis of 
all sexual assault cases reported, and when I looked over the 
number of cases where an individual would be convicted of rape 
or aggravated sexual assault, but then they would merely 
receive an administrative action or be demoted, or in many 
cases no action was taken at all, there were quite a few of 
those.
    And since one of the reasons we made the effort to change 
article 120 was so that we could get prosecutions--and now we 
have prosecutions, we have convictions--and so I am wondering 
why is it that individuals who were clearly convicted of sexual 
assault are getting away with mere demotions or administrative 
action? And I have to tell you that that, when I read that, 
unless you can clarify that for me, pretty much really angered 
me. So it is my understanding that most of the investigation 
and adjudication of the allegations of sexual assault fall 
under the commander's jurisdiction. And so that is why I added 
language to the fiscal year 2010 NDAA, requiring the 
Comptroller General to provide the congressional defense 
committees with a report on the capacity of each service's 
infrastructure for the investigation and the adjudication of 
allegations of sexual assault.
    So what are the barriers that exist in the sense that--to 
facilitate a fair and effective investigation, to adjudicate 
the sexual assault cases to the full extent of the UCMJ, and 
why are so many individuals committing these crimes, getting 
convicted, and getting minor sentences or demotions?
    Dr. Iasiello. I am not sure how appropriate it would be, 
but we have some great legal minds with us who have studied 
this for the last 15 months and have pored over a lot of cases. 
And if it would be appropriate to allow Colonel Grant, who is a 
member, who is also one of our legal experts, to maybe address 
that question for Congresswoman Sanchez?
    Mrs. Davis. Any objection?
    Hearing none, please go ahead.
    Colonel Grant. Ma'am, as far as your initial statement, I 
believe you were referring to the reports at the end of the 
SAPR report?
    Ms. Sanchez. Yes.
    Colonel Grant. The way that those are written is, the 
allegation is rape or aggravated assault, and one of the 
problems that we know in the report itself is there is 
frequently not a discussion of what the actual ----
    Ms. Sanchez. Conviction to ----
    Colonel Grant. So it is the allegation. I am sure in 
reading our report, we are very critical of the way that that 
information is related because it really doesn't provide you 
good information at all. And that is why a lot of our 
recommendations deal with improving the report, so you get a 
clear picture as to what really happened in each individual 
case.
    Ms. Sanchez. So, in other words, what you are saying is 
someone alleged rape and then it went to be prosecuted and we 
received a conviction; we don't know what that person was 
really convicted of under the report.
    Colonel Grant. I do not believe that the reports actually 
have that information in there, yes, ma'am.
    Ms. Sanchez. But we do have that information, and if we 
figured out a way to get that information, we would have better 
information to tell us what they are being convicted of and 
why. Because, again, I saw mere dismissals and changing to 
other units, et cetera, et cetera, which if that is the case, 
that is not the intent of what we had in mind.
    Colonel Grant. Absolutely. But what happens is they go and 
they report to the investigators and they say, I was raped. And 
then the investigation occurs and there is any number of 
different conclusions that can be reached after the course of 
that investigation. There is a gap in the report as to that 
particular process. Maybe there is an unknown perpetrator. She 
was raped but we don't know who did it. She was raped by a 
civilian, not a military person. She recanted, it really didn't 
happen. She thought she was raped but after we figured out what 
the facts were, it wasn't technically, legally, rape. There are 
any number of reasons but----
    Ms. Sanchez. But again there were convictions, so we didn't 
find the perpetrator, we don't know who he is. I mean, you 
wouldn't convict somebody.
    Colonel Grant. Yes, there are convictions in certain cases, 
I would agree with that. But some of the information where you 
are saying is--I can't remember exactly what the punishment 
was, but it was not consistent with a conviction. There are 
situations where, if there are convictions and they are just 
like demoted in rank, it is possible that the thing they were 
found guilty of, it was not actually rape or aggravated 
assault.
    Ms. Sanchez. I understand. I guess it goes back to the 
whole issue of we need to have the right information so we can 
find out whether we are really getting convictions or whether 
the culture is still one where the commandant or whoever, the 
commanding person, is still leery of, you know, ruining 
somebody's, you know, whatever.
    I mean, we have had so many stories of people being sent 
off to other places, et cetera. We need to get to the bottom of 
what is a conviction and why are there dismissals going on.
    Mrs. Davis. Thank you, Ms. Sanchez. I am going to move on 
so we can get at least a question in before we have to break 
for votes.
    Ms. Sanchez. Yes. Thank you.
    Mrs. Davis. I think the discussion has been having the 
results of disciplinary actions, having more transparency 
around those, and trying to figure out what is the best way to 
get to that place so that we are even able to see that in the 
context of the discussion today. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Madam Chairwoman.
    And thank you for your testimony and your report. I found 
it very interesting, a very serious effort to address the great 
challenge of sexual assault in the military. We know there is 
much more to be done, just from anecdotal stories from people 
who have experienced sexual assault, who tell us how that they 
feel they are not particularly taken care of. And one of the 
issues I think we keep coming back to is the role of the 
commander in making the decision over whether or not a case 
goes to court martial.
    The 1999 decision of U.S. versus Gammons in the United 
States Court of Appeals for the Armed Forces stated, quote: 
``One of the hallmarks of the military justice system is a 
broad discussion vested in commanders to choose the appropriate 
disposition of alleged offenses.'' And we know that the 
military is a unique place with unique requirements.
    The Department of Defense general counsel also analogized 
the role of a commander to be similar--and we had a meeting 
with the gentleman to sort of walk us through some of the 
issues there--to be similar to that of a prosecuting attorney 
in the event of a reported assault. He or she has full 
discretion over whether or not to take a case to court. The 
commander may get advice from a judge advocate general on the 
merits of the case, but ultimately it is the commander who 
makes the final decision.
    My question is: What existing mechanisms does DOD have in 
place for third-party oversight of review of these decisions or 
a commander's decisions regarding how to proceed on a sexual 
assault case appealable? If so, what are the steps needed to be 
taken to appeal such a decision, and does the lack of such a 
process, do you think, pose a problem?
    And the other question I would have is really the oversight 
around the JAG officer. If the commander is depending very much 
on the JAG officer's recommendations, how can we engage in sort 
of questioning the JAG officer's role in advising the 
commander?
    General Dunbar. Those are all very good questions. From the 
JAG officer, taking the last first, the JAG officer has 
reachback authority back to the commands--higher level 
commands, if the individual is feeling as if they do not have 
all the data points, all the advice, all the support that they 
need in order to provide the commander with the advice, 
considering the circumstances.
    I believe that most commanders when they are talking with 
JAGs, they know that the JAGs are providing advice. The 
commanders ultimately make the decision as to what they want to 
do, where they want to go in terms of judicial, nonjudicial 
measures. And if the commander is dissatisfied with the advice 
the JAG has made, the commander likewise has higher-level 
command authorities supporting major command in order to be 
able to elevate the issue in order to seek to get some 
additional guidance.
    From an oversight perspective, I will tell you that our 
task force did not feel that additional oversight was 
necessary. I mean the review through the investigative files 
indicated that where information was available, where you were 
actually able to make a determination of having sufficient 
evidence to prosecute a case, that the commanders as well as 
their JAGs sought to prosecute the case.
    The concern, as Congresswoman Sanchez raised, is that it is 
very difficult to ascertain that information just based upon 
the report, and that level of data collection and offender 
accountability needs to be built into the system accountability 
so you can see exactly what is taking place.
    But from the standpoint of oversight, I personally do not 
see that as being necessary, and I would defer to Dr. Iasiello 
if he has a difference of opinion.
    Dr. Iasiello. Not at all. I would like to add they were 
great questions, Congresswoman, very important questions.
    One of the things we did see as we went around these many 
locations was we met with the courts martial convening 
authority everyplace we went, and we saw a desire there to 
aggressively pursue and to step forward wherever they thought 
it was possible. And I say that, knowing that as we went in and 
conducted our interest interviews with these commanders and 
with these courts martial convening authorities at even flag 
levels, they knew why we were there; but I really sensed from 
them the intent was to aggressively pursue, wherever and 
whenever possible, any sort of a perpetrator of sexual assault. 
And, of course, they know that they set the tone; the 
commanders set the tone. And they send messages within the 
command as to whether or not they do pursue and aggressively 
pursue these perpetrators or alleged perpetrators. So I think 
the intent is there.
    You know, we have added recommendations such as to 
recognize the special nature of prosecuting these cases and the 
need for more training for our JAGs and those involved in the 
judicial process. And I think with that added training, with 
these specialized prosecutors, and with the intent of 
commanders to eradicate this crime from their midst, knowing 
its impact on morale and welfare of their troops, I think we 
are stepping in the right direction.
    Ms. Tsongas. I have just about run out of time. But did you 
see many instances in which a commander's decision not to 
prosecute as it went up a chain of command was overturned, that 
a higher-up in the chain, somebody said no, that case we really 
have to pursue it?
    Dr. Iasiello. Ma'am, I have been informed we didn't see 
anything like that.
    Ms. Tsongas. Thank you.
    Mrs. Davis. Thank you.
    We have the first of five votes and then this will be the 
last votes for the day. So I beg your patience and we will 
return in--it is probably going to be close to a half hour.
    [Recess.]
    Mrs. Davis. Thank you very much for your patience and 
waiting for us to return. We may be joined by one or two 
members, but I think I am going to start off again and then we 
will see if others arrive.
    Mr. Wilson and I are very happy to have you here and to 
continue with our conversation. I wanted to try and get in a 
little more depth about the privileged communication and how 
you see the changes that you are recommending. You wanted to 
enact a comprehensive military justice privilege for 
communication between a victim advocate and a victim of sexual 
assault. It is interesting, because I think some of the more 
emotional testimony that I have heard, just more privately as 
people have talked to us about that, is how frustrating that 
has been. And perhaps you can share with us if this is one of 
the areas where you really did feel quite a bit of passion on 
the part of the people you spoke to about trying to define that 
better, what can we do to make sure that that works.
    Are you aware of any time that a victim advocate has 
actually testified in a court martial?
    General Dunbar. I am personally not aware of any specific 
incident, but I know that in the review that we did of the 
cases, that there have been instances where they were called to 
testify, which goes back to why we believe that this is very 
important. And I think that when we first established victim 
advocates, the intent was to allow victims to have somebody to 
talk to, somebody who was trained; and it is pretty extensive 
training, 40 hours of training. But I don't think folks thought 
about the unintended consequence of an individual confiding in 
somebody who ultimately would be called to testify against 
them.
    And it goes back to what is the intent of why it is that we 
address sexual assault response, prevention. We want 
individuals to be able to come forward so that we can help 
them. And if they know that the individual that is designated, 
who is very well trained, who can help them, ultimately can 
also testify against them, many of the victims are loath to 
come forward and, as a result of that, do not receive the care 
and the treatment that they need.
    Mrs. Davis. Are there other effects that you see as well in 
terms of that relationship if, in fact, that person did have to 
testify? I think in some cases perhaps it would be a positive 
thing that they would testify as well. Does it go both ways?
    Dr. Iasiello. Madam Chairwoman, as far as what the General 
has already said, I can think of no instance of that being 
reported. But even just the threat that something could be used 
against someone--and as someone who enjoyed that privilege as a 
chaplain in my former life and having that sort of sacred trust 
of having someone walk in my office and know that whatever was 
discussed would never be discussed outside of those four walls, 
that sort of comfort that you give to someone at a moment of 
extreme pain, personal pain in their lives, is so critical. And 
we don't make this recommendation lightly. We know that 
extending this military justice privilege is really stretching 
things. But we feel that for the sake of the victim, it is so 
important to know that. And not all victims feel comfortable 
going to their chaplain. And to have that outlet of having 
someone else not within the command structure, but somebody in 
the proximity of them that they can go to and share this 
incredible pain with, begin the catharsis, begin the healing, 
we feel is so critical. But even the threat they could be 
called in some way to testify and to break that seal that 
others enjoy, that is why we felt strongly about making that 
recommendation.
    Mrs. Davis. Does that belief also go to--that it be a 
uniformed advocate and a uniformed victim?
    Dr. Iasiello. Ma'am, we were looking at whoever fulfills 
that role of victim advocate. And that is why we see the 
professionalization of that role and the national certification 
as extremely important. Because along with the privilege comes 
a great responsibility that needs to be understood and needs to 
be put in context. So the extension of the privilege is really 
contingent upon the training and the certification of those 
individuals.
    Mrs. Davis. Did you have any concerns about the capacity of 
the system to bring forth individuals who are willing to go to 
that extent to become a victim advocate? Did you sense a lot of 
willingness for people to be far better trained? And what kinds 
of benefits might they have to be in that highly professional 
position?
    General Dunbar. Madam Chair, we actually have a number of 
victim advocates who are volunteers across the services. And 
that is actually one of the things that we focus on. We have 
probably far too many victim advocates, and, as a result, their 
ability to actually provide support doesn't occur very often, 
because you may have 80 victim advocates on any one 
installation and the frequency of sexual assaults is that maybe 
one or two might actually have some experience. So there is 
extensive training, the investment of training to keep people 
refreshed on the skill, to keep them aware of what is going on. 
And then folks are doing this as a second collateral duty, 
additional duty.
    So what we are recommending is actually narrowing down and 
professionalizing the victim advocates so that you may have a 
full-time victim advocate that could be a civilian social 
worker type. But then you also need to have military victim 
advocates because those victim advocates need to deploy. While 
civilians do deploy in our services, typically that is a 
military member. It is a combination of both. It is a smaller 
group of people, some of whom will be volunteers at a more 
senior level as opposed to some of the junior levels that we 
have seen. And through the training, the professionalization, 
we would be able to ensure that they are able to provide the 
level of support that we would want for the victims, to include 
being able to have that level of maturity for the 
confidentiality.
    Mrs. Davis. I appreciate that. Thank you.
    Mr. Wilson, do you want to go on? And maybe we will come 
back.
    Mr. Wilson. Well, actually in conclusion, I just want to 
thank both of you. And, General Dunbar, your background here, 
serving as a congressional fellow, Senate fellow, is well 
appreciated. And just thank you for your service in this 
regard.
    And, Admiral, I was so happy to find out your background as 
a chaplain. And I am very grateful that the Joint Chaplain 
School is located at Fort Jackson, South Carolina. So we look 
forward to a long history of working with the chaplains and 
your service as chaplain in the Marine Corps. I represent 
Parris Island too, the Marine Corps Air Station, so your 
service with the Navy. So thank both of you. It is certainly 
encouraging to me and it certainly maintains my high regard, 
with four sons serving in the military, for the persons who are 
serving in the military it is a great opportunity of service 
where people want the best for the young people who are serving 
our country. So thank you for what you have done to look out 
for the young people of our country so that they have the best 
opportunities to serve in a most fulfilling way. Thank you very 
much.
    Mrs. Davis. Thank you, Mr. Wilson. One of the other 
recommendations in the report is for Congress to enact a law 
that would exempt federal medical personnel from state 
provisions requiring them to report sexual assaults to civilian 
law enforcement and to ensure that all service members have the 
restricted reporting option. So how do you see that working 
exactly? What sort of concerns would you have about that?
    General Dunbar. Currently we only have a few states that 
fall in that category. And it is problematic if we are trying 
to ensure that military members at installations in those 
states are afforded the same opportunity to be able to make a 
restricted report. There are agreements that can be made with 
the local officials, but for the most part one would think that 
you should not have to do that. So that is the purpose of the 
recommendation that we make for congressional action.
    Mrs. Davis. Are there other federal agencies that would be 
in that same position?
    General Dunbar. Ma'am, I am not familiar with that.
    Mrs. Davis. California and Illinois, are they problematic 
in this regard?
    General Dunbar. Yes, those would be the two states.
    Mrs. Davis. Thank you. And what about sexual assaults that 
don't take place on federal installations? Does that provide 
any different obligation in terms of reporting?
    General Dunbar. Our recommendation, I believe, was largely 
focused on those assaults that take place with military 
jurisdiction.
    Mrs. Davis. Only in military jurisdiction. Thank you.
    One of the other concerns that we talked about in hearings 
prior to this is the accountability of commanders. And the 
issue was raised whether or not we are certain that the case 
dispositions under that commander are well-known when it comes 
to career advancement.
    Did you have a chance to look at where this might really 
resonate in terms of how people are evaluated for their 
advancement? Do you think that it exists? Is it part of the 
evaluation today? Is there a way that it could be more 
transparent in terms of incidents that happen under an 
individual's command?
    General Dunbar. Currently, commanders are assessed on their 
performance, obviously, in command and the technical specialty, 
as well as how well it is that they take care of the men and 
women in their charge. So I think that it is indirectly 
assessed, as are so many other issues that run into areas of 
domestic violence, suicide, workplace violence, et cetera.
    And I think that to specifically categorize the response to 
sexual assault, again given the infrequency that it occurs 
during the course of command--and when I say infrequency, I 
don't mean to dismiss the fact that sexual assault does occur 
in the military. For instance, when I was in wing command, it 
occurred one time, the allegation of sexual assault. And we did 
what we needed in order to provide the support to the 
individual. In two other commands, it did not occur at all. So 
if you are to separate in a performance report a specific area 
that addresses sexual assault, given the fact that it does not 
occur that often, I think that that would be problematic. And I 
do think that there is such a focus on taking care of people 
that it is sufficiently addressed as it is.
    Mrs. Davis. Doctor, any comment?
    Dr. Iasiello. I think the General has stated it very well; 
that first and foremost, of course, is the completion of 
mission and making sure that the troops are ready to do what 
they need to do for their country, but being so involved with 
the morale and welfare of their troops in every aspect, 
including family life, interrelationships and so on. I would 
say that specifying this in a way that would identify it as 
something special from all the other responsibilities would 
certainly, as the General said, would be problematic.
    Mrs. Davis. One of the concerns throughout the report is 
that the strategies in place have been to some extent, with the 
exception of best practices that you witnessed and wrote about 
in the report, that we just haven't had the kind of strategies 
that really have an evaluation process in place to be able to 
go back and understand.
    Now as we move forward, trying to incorporate many of your 
considerations in this report, what should that look like? What 
would you really like to see? And I guess the other counter to 
that would be you would feel like all this effort was for 
naught if you didn't see something in place that really stood 
out in terms of these strategies.
    General Dunbar. One of the recommendations that we make is 
worded as a metric. But it really gets to coming up with a way 
to measure the effectiveness, the efficacy of the strategies. 
And in this area, we believe it would be very beneficial for us 
to work with others who are dealing with these issues. There 
are colleges and universities that are addressing the same 
youth population; federal, state and local areas that are 
support providers who have some strategies that they believe 
might work.
    We did a lot of research and we could not find any 
particular way to measure the effectiveness of existing 
strategies. And that is one area where we believe that Congress 
could assist, because I think that there needs to be some 
research that would benefit everybody who is addressing a major 
social issue.
    Mrs. Davis. And this authority would lie in a more 
expanded, more--tighter authority in the SAPRO Office? Is that 
what you think over time?
    General Dunbar. I believe that part of this is actually 
funding the research that would enable us to better understand 
what strategies are effective. But certainly the SAPRO Office, 
as it is setting up its overarching strategy, needs to do 
assessments in working with the services so that they can 
determine how it is that you are having an effect on training, 
how it is that you are having an effect on prevention.
    Part of it is attitudinal. Certainly part of it is 
behavior. It is understanding. We do a number of surveys, the 
gender relation surveys every four years. We advocate doing it 
every two years in order to see maybe the impact of some of the 
strategies. But I think as we ask some of the questions in the 
surveys, they need to be specifically drawn back to some of the 
strategies we have in place to have a better understanding. 
That is just one example of being able to do it.
    But, again, there are colleges and universities that have 
strategies in place and they don't have any kind of measures of 
effectiveness. And we were hoping that we might be able to 
learn from them. It is an area that requires some further 
study, we believe.
    Dr. Iasiello. Ma'am, you have identified an area that for 
us we all feel passionate about. We would love to see the 
metrics there, but you can't develop the metrics until you have 
developed the standards on which to measure. We see that as an 
incredible void in not only helping us to identify the health 
of our programs, but also the way ahead, to be able to identify 
and give granularity to the numbers so that we can begin to 
identify trends, so that we can begin to address issues 
proactively. So we all feel rather passionate about its 
membership.
    Mrs. Davis. Just as we are finishing up, is there any 
interview or discussion that you had that just really stands 
out that, I think, inspires you or inspired the task force in 
their work that you would like us to know about?
    General Dunbar. I think there are a lot of compelling 
instances where we have seen the remarkable difference of how 
involvement and how leadership, how awareness has improved the 
situation in terms of prevention and response.
    At the same time, we have seen a lot of compelling cases 
where it has for us unearthed the fact that this has been a 
longstanding issue that needs to be addressed, that affects not 
just females who are serving in the military, but males as 
well.
    And I think as we have done the research and we have 
realized that others are in communities--and I keep hearkening 
back to colleges and universities because that is primarily the 
age group of those who are most at risk--that there is 
tremendous opportunity for collaboration in terms of coming up 
with some solutions to address a societal issue.
    Dr. Iasiello. I have to be very careful this doesn't turn 
into a sermon. But dealing with such a heinous crime could be 
something that could take the wind out of your sail pretty 
easily. But for us, going to all of these installations and 
seeing the caliber of our young men and women in uniform, for 
us it is always an incredibly uplifting experience. I wouldn't 
go to one area and one command and say this was a very special 
event, but I would look at all of them and say that our 
interaction with our young men and women have energized us 
again, and they have left us with a very positive and 
optimistic attitude, no matter how big the issue or how big the 
crime or how big the obstacle to overcome, that it will be 
overcome because of the caliber of our young men and women. So 
that for us has been extremely important in this process.
    Mrs. Davis. Thank you very much. I appreciate that. Our 
young men and women serving our country inspire us every day as 
well. I appreciate that. I certainly hope that you will feel 
and believe that your efforts have been well taken and that we 
will continue to move forward, and hope that many of those 
recommendations are put in place and that we can even have a 
reporting mechanism in place in the near future. Thank you very 
much.
    [Whereupon, at 5:14 p.m., the subcommittee was adjourned.]

=======================================================================

                            A P P E N D I X

                            February 3, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 3, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
